No. 19-857

 

 

 

 

 

IN THE
Supreme Cowt of the United States

CIty oF CHICAGO,
Petitioner,
ve
ROBBIN L. FULTON
GEORGE PEAKE, AND TIMOTHY SHANNON,
Respondents.

 

CERTIFICATE OF SERVICE

 

I, Catherine Steege, hereby certify that I am a member of the bar of this Court
and that I have this 8th day of November, 2019, caused three copies of the foregoing
Respondents’ Brief In Opposition to be served via electronic mail and UPS overnight
delivery, postage prepaid on:

Craig Goldblatt

Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Avenue, NW
Washington, DC 20006
craig.goldblatt@wilmerhale.com

 
